       AUDIT OF PREMIER CERTIFIED LENDERS


        IN THE SECTION 504 LOAN PROGRAM



                              Report Number: 10-10


                            Date Issued: March 23, 2010






                                Prepared by the


                          Office of Inspector General


                      U. S. Small Business Administration




In some instances the SBA OIG has elected to use minor text additions or pseudonyms
rather than straight redaction on the public version of this report. We believe these
modifications create a more readable product, while still protecting information subject
to Exemption 8 of the Freedom of Information Act.

This revised version of Report 10-10, posted May, 2010, is the same as the one issued
March 23, 2010, except that the SBA OIG has made revisions to clarify and properly
characterize issues noted with loans made by one of the Preferred Certified Lenders.
These revisions do not alter the overall report findings and recommendations.
           U.S. Small Business Administration
           Office Inspector General                Memorandum
    To:    Eric R. Zarnikow                                          Date:   March 23, 2010
           Associate Administrator, Office of Capital Access
           /s/ Original Signed
  From:    Debra S. Ritt


           Assistant Inspector General for Auditing



Subject:   Report on Audit of Premier Certified Lenders in the Section 504 Loan Program
           Report No. 10-10

           This report summarizes the results of our audit of the underwriting practices,
           compliance, and executive compensation of Premier Certified Lenders (PCL) in
           the Section 504 Loan Program (CDC/504). The CDC/504 program is
           administered through cooperative agreements with non-profit organizations, called
           Certified Development Corporations (CDCs), who work with private sector
           lenders to provide financing to eligible for-profit businesses. CDCs typically
           originate CDC/504 loans and forward them to SBA for approval. Lenders granted
           PCL status are able to approve, close and service CDC/504 loans with SBA only
           reviewing the loan requests for eligibility.

           The audit was initiated based on concerns that PCLs were engaging in risky
           underwriting practices and that five PCLs were paying their executives excessive
           compensation. The initial audit objectives were to determine whether (1) PCLs
           exercised prudent underwriting practices when making SBA loans, and
           (2) compensation paid to executives of five CDCs was high relative to that of
           other CDCs. The five named CDCs were: EDF Resource Capital, Inc, Long
           Island Development Corporation, Capital Access Group, Inc, Mortgage Capital
           Development Corporation, and Front Range Regional Economic Development
           Corporation. After the audit was announced, we expanded our review to assess
           the extent to which CDC/504 loans complied with SBA’s eligibility and loan
           closing requirements based on issues identified during our review of the loan files.

           To determine whether PCLs exercised prudent underwriting practices, we
           statistically selected for review 25 loans from 1,169 loans disbursed in fiscal year
           (FY) 2008 by three of the largest PCLs—PCL 1, PCL 2, and PCL 3. Loans
           disbursed by these three PCLs comprised nearly [FOIA ex. 8] percent of the value
           of SBA’s PCL portfolio in FY 2008 and nearly [FOIA ex. 8] percent of SBA’s
                                                                                    2


total CDC/504 loan portfolio. Our review of the underwriting practices of the
three lenders focused on their determinations of applicant repayment ability.

To determine whether the three PCLs made proper eligibility and loan closing
decisions, we analyzed borrower information on trade partners, occupancy,
personal guaranties, equity injection, job creation/retention, collateralization,
environmental soundness, and adverse financial changes—the required factors for
establishing loan eligibility outlined in SBA’s Standard Operating Procedure
(SOP) 50 10, Lender Development Company Loan Programs. We interviewed
officials from SBA’s Office of Financial Assistance (OFA) responsible for
administering the CDC/504 Loan Program, and the Office of Credit Risk
Management (OCRM), who oversee the program and are responsible for its
biennial reviews. We also relied on reviews made by an SBA District Counsel to
determine whether PCLs met SBA requirements for environmental assessments of
business collateral. Finally, we interviewed management and staff from the three
PCLs and SBA’s Sacramento Loan Processing Center.

To evaluate the reasonableness of compensation paid to the executives of the
5 CDCs identified in the complaint, we compared the salaries plus benefits paid to
executives identified on Form 990s filed with the Internal Revenue Service to that
of the other 51 CDCs that had gross receipts over $1 million. We also reviewed
SBA regulations on executive compensation for CDCs, and interviewed SBA
officials on this subject.

Our audit scope and methodology is further detailed in Appendix I, our sampling
plan and statistical projections are described in Appendix II, and a summary of
deficiencies noted in the loans reviewed is provided in Appendix III. We
conducted the audit between June 2008 and December 2009 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND
The CDC/504 Loan Program is an economic development program designed to
stimulate private sector investment in long-term fixed asset financing, foster
economic development; create and preserve jobs, and stimulate the growth,
expansion, and modernization of for-profit small businesses. Under the program,
loans are issued through partnerships with CDCs and private sector, third-party
lenders to finance capital projects. Generally, the private sector lender makes a
secured loan equal to 50 percent of the project cost. The CDC, which is a non­
profit organization, provides the final portion of the financing, usually
representing 40 percent of the project cost, with a CDC/504 loan made from the
proceeds of a debenture issued by the CDC that is 100-percent guaranteed by
SBA. The borrower’s contribution is at least 10 percent.
                                                                                   3


CDCs that are active lenders in good standing with the Agency and who have
demonstrated the ability to properly analyze, close and service CDC/504 loans
may be delegated PCL status, which authorizes them to approve and liquidate
CDC/504 loans without prior SBA approval. PCLs are responsible for making
underwriting and eligibility assessments based on SBA credit standards. SBA’s
role on PCL loans is limited to reviewing the PCL’s certification of applicant
eligibility and providing loan numbers.

SBA requires that CDC-approved loans be of such sound value or so secure as to
reasonably ensure repayment. According to SOP 50 10, the borrower’s ability to
repay the loan from the cash flow of the business is the most important
consideration in the loan making process. However, SBA allows PCLs to
determine repayment ability through either an analysis of actual cash flow or by
using the “rule of thumb” method. An actual cash flow analysis relies on realized
increases and decreases in business assets and liabilities during an operating cycle
to determine the extent cash is available to meet financial obligations. The “rule
of thumb” method relies on the net profits of the business, adjusted by non-cash
expenses, to demonstrate repayment ability. For both methods, if available cash
equals operational expenses plus payments on the new (SBA) loan, the borrower is
said to have debt coverage of “1”. Borrowers with debt coverage of “1” or greater
(based on a debt service to cash ratio) are deemed to have repayment ability.

Further, to be eligible for a CDC-approved loan, an applicant must be an operating
small business located in the United States that is organized for profit, and which
cannot get credit elsewhere on reasonable terms. The eligibility factors that must
be evaluated for each loan are further detailed in SOP 50 10.

Responsibility for the CDC/504 Loan Program is shared by two SBA offices.
OFA administers the program, including establishing policy and procedures for
program implementation, monitoring loan activity, and reviewing the PCLs’
certification of applicant eligibility. OCRM oversees the program by monitoring
PCL activity and loan quality and conducting onsite reviews that examine the
PCL’s lending operations and processes.

As of June 2008, there were 271 CDCs participating in the CDC/504 Program, of
which 24 were PCLs. In FY 2008, the 24 PCLs approved 1,639 loans, valued at
approximately $1.1 billion under PCL authority. Three of the largest PCLs were
responsible for over [FOIA ex. 8] percent of the guaranty value of the PCL loan
portfolio.

RESULTS IN BRIEF
We determined that PCLs may not have used prudent practices in approving and
disbursing 68 percent of the sampled loans, totaling nearly $8.9 million, due to
                                                                                                                     4


poor loan underwriting, and eligibility or loan closing issues. Specifically,
40 percent of the loans had faulty underwriting repayment analyses, and
52 percent of the loans had eligibility and/or loan closing issues. Many of the
eligibility issues were based on unclear SBA military base closing/Federal cutback
criteria. PCL 3 had the highest percentage of problem loans of the three PCLs
reviewed. Projecting our sample results to the universe of CDC/504 loans
disbursed in 2008 by these three PCLs, we estimate with 90-percent confidence
that at least 572 loans, totaling nearly $254.9 1 million in CDC/504 loan proceeds,
had weaknesses in the underwriting process, eligibility determinations or loan
closing. Of this amount, we estimate that a minimum of 183 loans, totaling $56.4
million or more, were made to borrowers based on faulty repayment analyses. We
also estimate that lenders disbursed $209 million or more to borrowers who had
eligibility and/or loan closing issues.

Poor underwriting decisions were made primarily because PCLs did not use the
most appropriate method of determining the cash flow of businesses, relied on
inflated sales forecasts, and/or used understated projections of officer salary
expenses when calculating borrower repayment ability. Problematic eligibility
decisions resulted from PCLs inaccurately applying SBA procedures, using
outdated SOP guidance, and/or inappropriately qualifying loans that were intended
to provide funds to areas impacted by Federal budget reductions resulting in base
closings that occurred 12 to 15 years previously. While some of the issues
identified by the audit were detected in prior years during SBA’s onsite reviews of
lenders, they continued to exist.

In terms of dollars paid for CDC executive compensation, 4 of the 5 CDCs
reviewed were among the top 10 highest for executive compensation. 2 EDF
Resource, which was the top ranking CDC, paid in aggregate $2.5 million to its
executive pool in FY 2006. In terms of percentage of gross receipts spent on
executive compensation, 3 of the 5 questioned CDCs ranked among the top
10 highest of the 56 CDCs that had gross receipts over $1 million. Capital Access
Group ranked third, with 29 percent of its gross receipts spent on executive
compensation. SBA regulations require that any excess funds remaining after
payment of staff and overhead expenses be retained by the CDC as a reserve for
future operations or for investment in other local economic activity. Therefore,
high compensation expenditures reduce the amount of funds for the reserve or for
economic development activity.

We are recommending that the Office of Capital Access (OCA) revise SOP 50 10
to require that lenders use (1) the actual cash flow method to determine borrower

1
    Because many of the loans had more than one deficiency, the numbers do not necessarily add up.


2
    We compared total compensation paid to all CDC officers identified on the Form 990 filed with the Internal Revenue


     Service in FY 2006. The number of officers reported varied by CDC.
                                                                                                            5


repayment ability for businesses using accrual accounting, (2) historical salary
levels to estimate salaries of the borrower’s officers, and (3) historical sales data
to make sales projections. A process also needs to be developed to ensure that
corrective actions are taken in response to the Agency’s onsite reviews to ensure
these conditions do not continue, and/or guidance for these reviews should be
modified, as appropriate, to ensure that reviewers properly assess lender
determination of borrower repayment ability and eligibility. Further, we are
recommending that OCA clarify how CDCs should evaluate eligibility when the
Federal budget reduction public policy goal is used to qualify a borrower for a
loan, and consider establishing guidelines on the level of excess funds that CDCs
should retain as a reserve or invest in other local economic and development
activities.

SBA’s comments were not fully responsive to the report findings and
recommendations. Specifically, management disagreed that SOP 50 10 should be
revised to strengthen lender repayment analyses by requiring the use of the actual
cash flow method and historical salary and sales data. The Agency also did not
believe an additional process was needed to ensure that corrective actions are
taken to improve lender performance, but acknowledged that better use of onsite
review results are needed to make more informed lender decisions and
programmatic determinations. Finally, management agreed to clarify how
eligibility should be evaluated relative to the Federal budget reduction policy goal
and to establish guidelines on the retention of CDC reserves. Management also
disagreed with several specific loan findings, providing additional data or revised
Agency assessments showing that business collateral was environmentally safe.
Based on this information, we revised the number of loans that were identified in
the draft report as having underwriting, eligibility or closing problems by omitting
2 loans from the list of deficiencies.

RESULTS
Premier Certified Lenders Made Poor Underwriting Decisions

The three PCLs did not adequately analyze 10, or 40 percent, of the loans to
provide reasonable assurance that the loans had repayment ability. 3 These loans
totaled $5.3 million. Based on SOP 50 10, lenders are responsible for analyzing
each loan application in a commercially reasonable manner, consistent with
prudent lending standards. The SOP states that cash flow from the business is the
primary source of repayment and is the most important consideration in the loan
making process. When the financial analysis demonstrates that the applicant
cannot repay the loan in a timely manner from the cash flow of the business, the
loan request must be declined.

3
    Despite underwriting deficiencies, as of June 2, 2009, 80 percent, or 8 of the 10 loans were current.
                                                                                    6


We found that the cash flow analyses the PCLs performed on the 10 loans were
flawed because they excluded pertinent information from repayment ability
calculations; relied on inflated sales projections that were unsupported; and/or
used estimates of officer salaries that were not based on historical levels. Further,
PCLs applied the “rule of thumb” rather than the preferred actual cash flow
method in determining repayment ability for businesses that were on an accrual
accounting basis. The traditional “rule of thumb” method of determining cash
flow for the repayment of an SBA loan is to add non-cash expenses, such as
depreciation and amortization, to the firm’s net profit. This method, as illustrated
below, can inflate cash flow, and is not the preferred method, based on SOP 50 10
4, for businesses that use the accrual method of accounting:

       Net Profits                                    $100,000


       Depreciation                                     20,000


       Amortization                                      5,000


       Cash flow available for debt service           $125,000



In this example, cash flow available for debt service is $125,000. If the SBA loan
called for annual payments of $50,000, one could conclude that the borrower had
more than adequate repayment ability because cash flow available for debt service
exceeded debt service by two and one-half times, or $75,000.

A company’s actual cash flow is determined by its sources and uses of cash during
the repayment period of the loan. Sources and uses of cash can be determined by
analyzing the changes that occur in a company’s balance sheet accounts. In
general, if a company uses accrual accounting, and the “rule of thumb” method is
used, an increase in a current asset, such as accounts receivable or inventory
would be considered an inflow of cash, and any decreases in such assets would be
considered an outlay of cash. Similarly, an increase in a current liability, such as
accounts payable or accrued expenses, would be considered a cash outlay and a
decrease would be considered a cash inflow. Therefore, to obtain a more accurate
analysis of cash flow, further adjustments need to be made. Using the above
example, and assuming that the business generated $1 million of sales of which
$200,000 was recorded as accounts receivable, the actual cash flow would be
negative, and therefore, insufficient to cover SBA debt service:

       Net Profits                                    $100,000
       Depreciation                                     20,000
       Amortization                                      5,000
       Less the increase in accounts receivable       (200,000)
       Cash flow available for debt service           ($75,000)

Of the 10 loans determined to be inadequately analyzed, 5 were approved by PCL
3, 3 by PCL 1, and 2 by PCL 2. Following is a detailed discussion of the
                                                                                        7


deficiencies identified by lender. Based on these deficiencies, we estimate that at
least $56.4 million in CDC/504 program funds may have been improperly
approved in FY 2008.

PCL 3

PCL 3 determined that five applicants had repayment ability based on unsupported
sales projections, understated officer salary projections, and/or by using the “rule
of thumb” rather than the preferred actual method of determining business cash
flow. Specifically, the lender:

   •		   Relied on significantly overstated sales projections on two loans. On the
         first loan, PCL 3 relied on projections that showed sales would grow from
         $909,000 to $2.3 million, increasing the applicant’s cash margin from
         $235,500 to more than $1.5 million. Historically, however, the growth
         trend for the business did not support the use of these projections. For the
         second loan, PCL 3 relied on sales projections that were 93 percent over
         prior year sales because the business was adding a new line of service. In
         neither case were these projections tested against historical operations or
         industry averages to assess the reasonableness of such increases.

   •		   Under-estimated officer salaries on another two loans, which resulted in
         business expenses being understated and cash flow from operations being
         overstated. PCL 3 determined officer salary based on an estimate of the
         officer’s minimum living expenses. For one loan, officer salary was
         historically reported on Federal tax returns as $227,000; however, the
         lender estimated officer salary as $71,000. This lower estimate resulted in
         a debt service coverage score that was greater than 1, which met SBA’s
         repayment standards. However, when the officer’s actual salary was used,
         the applicant’s debt service coverage was significantly less than 1,
         indicating that the borrower lacked repayment ability. For the other loan,
         the lender estimated officer salary to be $84,000 when historically the
         salary was $383,000. Had the lender used the higher historical salary, the
         applicant would not have qualified because the actual debt coverage score
         would have been less than 1.

   •		   Over-estimated cash flow from business operations for two loans (one of
         which is discussed in the first bullet) because it used the “rule of thumb”
         method to determine repayment ability. Had the lender used the actual cash
         flow method, debt service coverage would have been less than 1, and the
         applicants would not have met SBA’s repayment standards.
                                                                                          8


PCL 1

PCL 1 determined that applicants on three loans had repayment ability because it
did not use higher historical salary data to make projections of officer salary
expenses. Additionally, the lender used significantly inflated projected sales for
one of the three loans even though historical sales showed a downward trend.
When estimated sales were adjusted to reflect historical performance in
conjunction with similar adjustments to rent and depreciation, the cash flow
projection showed that the applicant lacked repayment ability.

PCL 2

PCL 2 did not use IRS tax verifications to confirm the accuracy of financial
information used to determine repayment ability on one loan. It also understated
salary expenses and included unsupported applicant rental income on another loan,
which resulted in inflating the applicant’s cash flow.

In summary, based on the sample results, we estimate that at least 183, or nearly
16 percent 4, of the CDC/504 loans disbursed in 2008 by the three PCLs, totaling at
least $56.4 million, were not adequately screened for conformance to SBA’s credit
requirements.

Over Half of the Loans Reviewed Lacked Adequate Support for its Eligibility
Determinations or Did Not Meet Loan Closing Requirements

Of the 25 sampled loans reviewed, 13, totaling $7.6 million did not have adequate
support for eligibility determinations or meet all loan closing requirements. In
determining eligibility, CDCs are required to evaluate a number of factors before
approving loans, including whether applicants had:

       •		   Achieved the program’s economic development objective by meeting either
             job creation/retention, community development, or one of eight public
             policy goals;

       •		   Partnered with international trade firms that were verified by the Import-
             Export Bank as being from authorized countries for trade;

       •		   Injected adequate equity into the business;

       •		   Met minimum occupancy percentage requirements;

       •		   Obtained personal guaranties from all required parties;


4
    This number has been rounded up from 15.6 percent.
                                                                                                                         9


           •		   Obtained environmental assessments showing that business collateral was
                 environmentally safe; and

           •		   Received assurance that they had not experienced any adverse financial
                 changes within 120 days before loan closing.

    However, 13, or 52 percent, of the reviewed loans, totaling $7.6 million, had either
    eligibility issues or did not meet SBA’s loan closing requirements. The majority
    of loans reviewed for each lender were not properly assessed for eligibility.
    Specifically, 50 percent of the 10 PCL 3 loans were not properly evaluated; 40
    percent of the 10 PCL 1 loans were not properly assessed for eligibility; and 80
    percent of the 5 PCL 2 loans were not properly evaluated. In some cases, lenders
    did not follow SBA guidance, while in other cases SBA’s guidance was lacking.
    For example, SBA regulations and procedural guidance state that loans that can
    assist businesses in moving to areas affected by Federal budget reductions,
    including base closings, are eligible for the program. 5 However, because the
    guidance does not establish time limits for when Federal cutbacks had to have
    occurred or require CDCs to determine whether adverse economic conditions still
    existed at the time of loan application, PCLs approved loans for base closures that
    occurred 12 to 15 years previously for areas that either improved economically or
    were not related to the base closures. As shown in Table 1 and further discussed
    below, the lenders did not adequately assess multiple eligibility factors or address
    all loan closing requirements.

                               Table 1. Eligibility and Loan Closing Issues by PCL Reviewed
                  Percent of                                                          Job Creation/
                   Reviewed                                                           Retention or
                  Loans With      Exporter                     Personal      Equity   Public Policy      Environmental        Adverse
                   Problems      Verification   Occupancy      Guaranty     Injection     Goal             Clearance          Change
 PCL 3               50%                                            X           X              X

 PCL 1               40%                                                                       X                                X

 PCL 2               80%              X               X             X           X              X                X               X
Source: SBA’s CDC/504 Loan Files

    PCL 3

    Five of the 10 loans made by PCL 3 had one or more weaknesses involving
    borrower compliance with occupancy, personal guaranty, equity injection, public
    policy adherence, and/or environmental review requirements. Specifically, we
    found that the lender:



    5
        A project that achieves public policy goals are eligible if the CDC’s overall portfolio of 504 loans, involving the
        subject loan, meets or exceeds the CDC’s required job opportunity average.
                                                                                    10


   •		   Qualified applicants for five loans that were to be used to counter the
         negative economic impacts resulting from base closures to achieve a
         Federal Cutback public policy goal. However, the cited base closures
         occurred 12 to 15 years previously, and the impacted areas either had
         recovered or the current economic conditions were unrelated to the base
         closures. Also, one of the loans involved a base closure in Long Beach,
         CA, which is south of Los Angeles, although the business was located in
         Glendale, north of the city. While the SOP allows the use of base closures
         as an exception, it does not require lenders to determine whether the
         adverse economic conditions resulting from the base closures still existed at
         the time of loan application.

   •		   Approved another loan without obtaining sufficient financial or
         organizational information to determine whether all parties with a
         20-percent interest were financially invested in the project to meet the
         personal guaranty requirements of the SOP.

   •		   Approved another loan without evidence that $96,500 in required equity
         was available to the borrower without taking on additional debt.

PCL 1

Four of the 10 loans made by PCL 1 either did not comply with or had inadequate
determinations on required standards for one or more of the public policy goals,
environmental evaluation, or adverse financial change eligibility factors. Our
review of these loans determined that the lender:

   •		 Qualified an applicant for a loan that was to be used to counter the negative
       economic impact resulting from a base closure, and thus eligible under the
       Federal Budget Cutback public policy goal exemption. However, while
       areas affected by Federal budget cutbacks, such as facility closings or
       cutbacks in defense-related industries, would require economic
       development assistance, the cited base closure occurred 12 to 15 years ago.
       Also the impacted area either had recovered or the current economic
       condition was unrelated to the base closure.

   •		 Qualified another loan on the basis that it met a Community Development
       goal without an analysis showing how the project would meet the specified
       goal, as required.

   •		 Did not verify that adverse changes had not occurred in borrower
       repayment ability prior to loan closing on two loans based on a review of
       financial statements current within 90 days of loan closing.
                                                                                   11


PCL 2
Four of the five PCL 2 borrowers did not comply with, or had inadequate
determinations on, one or more of SBA’s eligibility factors relating to public
policy goals, exporter verification, occupancy, personal guaranty, equity injection,
environmental assessment, and adverse financial changes. Specifically, we
determined that the lender:
   •		 Qualified two borrowers for CDC/504 loans under the Federal Cutback
       public policy exemption based on base closures that had occurred 12 to 15
       years previously. However, the areas impacted by the base closures either
       had recovered or the current economic conditions were unrelated to the
       base closures.

   •		   Approved another loan without evidence from the Export/Import Bank that
         the borrower’s international trade partner, who accounted for 95 percent of
         the borrower’s 2007 sales, was an approved trade partner.

   •		   Did not substantiate that the borrower on another loan could meet the
         51 percent occupancy requirement for the property purchased with the loan.
         The lender also did not secure a personal guaranty on the loan from the
         individual identified as a 40-percent owner, as required by the SOP.
         Further, the lender incorrectly concluded that the loan required a 10 percent
         equity injection, when 15 percent was required because documentation was
         not provided to show that the loan was for an existing business.

   •		   Did not ensure that concerns identified in the environmental assessment for
         one loan had been resolved prior to loan disbursement, as required by the
         SOP.

   •		   Did not obtain updated financial data for borrowers on another loan within
         the required 120 days prior to loan closing to ensure that financial changes
         had not occurred that could impact the borrowers’ repayment ability.

In summary, based on the sample results, we estimate that at least 417, or nearly
36 percent, of CDC/504 loans disbursed in 2008 by the three PCLs, totaling at
least $209.5 million, did not meet one or more eligibility or loan closing
requirements for the CDC/504 Loan Program.

Deficiencies Noted Were Previously Identified in 2007 Onsite Reviews for the
Same CDCs

Every 12 to 24 months SBA performs onsite reviews to assess the quality of the
PCL’s lending operations to provide assurance that lenders operating under
delegated authority are complying with the Agency’s lending requirements. Key
components of this review are an evaluation of the PCL’s credit administration
                                                                                                          12


practices, including its ability to determine the creditworthiness of applicants
through consideration of applicant repayment ability, and the lender’s eligibility
determinations.

In 2007, OCRM’s review of PCL 2 and PCL 1 identified issues with the lenders’
credit analyses and eligibility determinations. For example, OCRM identified
weaknesses in PCL 2’s analyses of borrower repayment ability, and in the lender’s
verification and reconciliation of documentation of environmental assessments for
eligibility determinations. OCRM also found that PCL 1 did not always obtain
IRS transcripts or reconcile borrower financial information, obtain data on
borrower equity injection, or ensure that property appraisals were complete.

Four CDCs Ranked Among the Top Ten CDCs Who Paid the Highest
Executive Compensation
Four of the 5 CDCs reviewed ranked among the top 10 CDCs that paid the highest
average executive compensation in FY 2006. Three of these CDCs also ranked
among the top five CDCs who paid the highest percentage of their gross receipts
in executive compensation that year. As shown in Table 2, EDF Resource,
Mortgage Capital, Capital Access, and Long Island were among the top 10 CDCs
that paid the highest compensation in FY 2006. According to IRS filings, in 2006,
EDF Resource had seven executives, Mortgage Capital had six, Capital Access
had two, and Long Island had two. EDF Resource and Mortgage Capital were the
top two ranked CDCs, with total compensation of $2.5 million and $1.8 million,
respectively. 6

As shown in Table 3, when total compensation was evaluated as a percentage of
gross receipts, Capital Access Group, EDF Resource, and Capital Mortgage were
among the top 5 for executive compensation, with 21 to 29 percent of their gross
receipts paid to executives. Specifically, executive compensation comprised
28.6 percent of the gross receipts of Capital Access, 25.8 percent of EDF
Resource’s gross receipts, and 21.3 percent of Mortgage Capital’s gross receipts.




6
    $2.5 million was rounded down from $2.519 million; $1.8 million was rounded up from $1.797 million.
                                                                                                                                                                                           13


             Table 2. Total Dollar Value of Executive Compensation Paid in FY 2006 by CDCs
                                 with $1 Million or More in Gross Receipts

                                                                                             = Five questioned CDCs

                  EDF Resource Capital                                                                                                                           $2,519,191

                       Mortgage Capital                                                                                                   $1,797,564

                Granite State Economic                                                                                       $1,508,610

                       Florida Business                                                                       $1,184,760

                   CDC Small Business                                                                    $1,067,304

                  Capital Access Group                                                        $841,183

               Long Island Development                                                        $832,593

                      Tw in Cities-Metro                                                 $771,093

                   Southland Economic                                             $600,304

                      Georgia Certified                                     $516,941

                   Minnesota Business                                    $448,300

                   California Statew ide                              $381,400

                   Worcester Business                                 $371,711

                     Business Finance                            $334,403

                 Southern Development                           $310,421

                Southw estern Business                          $309,006

                   Greater Sacramento                          $296,224

                  Evergreen Community                          $290,987

               Lehigh Valley Economics                         $283,418

                         Rural Missouri                       $267,645

                   Altoona-Blair County                      $252,000

                    Florida First Capital                    $242,654

                     Enchantment Land                        $240,940

                         SomerCor 504                       $237,992

                    Pikes Peak Regional                     $218,793

                          Utah Certified                   $199,800

              South Eastern Economics                      $196,615
      CDCs




                   Advantage Certified                 $175,803

                        Capital Certified             $164,753

                  Front Range Regional                $160,000

                   Northw est Business                $152,423

                     Stark Development                $152,214

                       Mahoning Valley               $144,264

               Racine County Business                $139,574

                     Georgia Mountains               $135,300

                    Operation Osw ego               $125,100

                       Capital Regional             $119,280

                  South Central Kansas              $118,930

                    Black Haw k County              $116,689

                       Dakota Certified             $112,754

                   Richmond Economic                $111,615

                     Community Capital              $108,230

                   Community Ventures              $107,500

                       C.C.D. Business             $107,239

                     St. Charles County            $103,644

                       Southeast Local             $98,193

                      Cen-Tex Certified           $80,655

                  West Central Arkansa            $77,311

             Eastern Maine Development            $75,251

                Panhandle Area Council            $71,837

                        Tulsa Economic            $70,500

                  Tennessee Business             $45,500

                  Certified Development      $0

                     Greater Syracuse        $0

              County Corp Development        $0

                   Alabama Community         $0

                                            $0                         $500,000                 $1,000,000             $1,500,000             $2,000,000   $2,500,000         $3,000,000

                                                                                                                Gross Receipts


Source: IRS Forms 990 provided by GuideStar USA, Inc.
                                                                                                                                                                                  14


   Table 3. Executive Compensation as a Percentage of Gross Receipts Paid in FY 2006 by CDCs
                           with $1 Million or More in Gross Receipts


                                                                                  = Five questioned CDCs
                   Georgia Certified                                                                                                                            43.95%

            Granite State Economics                                                                                                          35.02%

               Capital Access Group                                                                                              28.61%
               EDF Resource Capital                                                                                     25.79%
                    Mortgage Capital                                                                       21.33%

                 Pikes Peak Regional                                                                      20.70%

                   Tw in Cities-Metro                                                                     20.43%

                  Enchantment Land                                                                    20.11%

              Southern Development                                                                 18.76%
                Minnesota Business                                                               17.84%
                Greater Sacramento                                                               17.76%

                Advantage Certified                                                     15.14%

                Southland Economic                                                     14.55%

                    Florida Business                                                14.34%

                  Georgia Mountains                                               13.23%

                 Operation Osw ego                                             12.41%
            Long Island Development                                            12.22%

                       Utah Certified                                         11.93%

                      South Eastern                                      10.08%

                  Business Finance                                     9.99%

                  Community Capital                                    9.94%

              Southw estern Busines                                    9.80%
                      Rural Missouri                                  9.44%

                California Statew ide                                 9.41%

            Racine County Business                                    9.35%

                    Mahoning Valley                                  9.25%

                  Stark Development                                  9.05%
   CDCs




             Lehigh Valley Economic                                  8.88%
                    Dakota Certified                                 8.79%

                Richmond Economic                                7.81%

                    C.C.D. Business                           7.19%

                  St. Charles County                         6.97%

                Northw est Business                          6.90%

                 Florida First Capital                       6.77%
                    Capital Regional                         6.50%
               Evergreen Community                          6.38%

                     Tulsa Economic                         6.13%

                     Capital Certified                   5.74%

                CDC Small Business                       5.64%

               Front Range Regional                      5.57%
             Panhandle Area Council                    5.25%
                 Black Haw k County                    5.22%

                Altoona-Blair County                   5.15%

                      SomerCor 504                   4.50%

                   Cen-Tex Certified                 4.30%

               South Central Kansas                 3.62%

               Tennessee Business                3.38%
                    Southeast Local              3.36%

                Worcester Business               3.35%

               West Central Arkansa              3.29%

                Community Ventures               3.11%

          Eastern Maine Development         1.29%

               Certified Development     0.00%
                  Greater Syracuse       0.00%

           County Corp Development       0.00%
                Alabama Community        0.00%

                                    0.00%           5.00%           10.00%        15.00%          20.00%           25.00%        30.00%   35.00%      40.00%   45.00%    50.00%

                                                                                           Percentage of Gross Receipts


Source: IRS Forms 990 provided by GuideStar USA, Inc.
                                                                                    15


While SBA policies and procedures for the CDC/504 Loan Program require CDCs
to have full-time, professional management, including an executive director or
equivalent, it does not establish limits on the amount of compensation that can be
paid to CDC executives. SBA requires that executive compensation be reasonable
and customary to that paid for contracted management services, but does not
define “reasonable.” According to senior SBA officials, it has not been SBA’s
policy to dictate how much its lending partners should compensate its executives.

However, SBA regulations 7 state that funds generated from CDC/504 loan activity
that are remaining after the payment of staff and overhead expenses be retained by
the CDC as a reserve for future operations or investment in other local economic
development activity in its area of operations. Therefore, to the extent that CDCs
are spending significant amounts on executive compensation, fewer funds will be
available to reinvest in economic development activity or future lending
operations of the CDC. If SBA established required reserve levels, there would be
greater assurance that CDCs are keeping expenses to a level that would allow the
accumulation of reserves for reinvestment or future operations, as intended by the
program.

RECOMMENDATIONS
We recommend that the Associate Administrator for Capital Access:

      1.		 Revise SOP 50 10, Lender and Development Company Loan Programs, to
           require that lenders use, among other things, (a) the actual cash flow
           method to determine borrower repayment ability for businesses using
           accrual accounting, (b) historical salary levels to estimate officer salary,
           and (c) historical sales data to make sales projections.

      2		 Develop a process to ensure that corrective actions are taken in response to
          OCRM onsite reviews, and/or modify guidance for these reviews, as
          appropriate, to ensure that reviewers properly assess lender determination
          of borrower repayment ability and eligibility; including lender validation
          of financial information used by borrowers to demonstrate repayment
          ability and assessment of eligibility based on achievement of public policy
          goals.

      3.		 Revise current guidance to clarify how eligibility should be evaluated in
           order to ensure the intent of the CDC/504 Loan Program is met when the
           Federal budget reduction public policy goal is used to qualify a borrower
           for a CDC loan.


7
    13 CFR 120.825
                                                                                    16


   4.		 Evaluate the need to establish monetary or other guidelines, on the level of
        excess funds that CDCs should retain as a reserve for future operations
        and/or invest in other local economic development activities.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On January 25, 2010, we provided the Office of Capital Access (OCA) with the
draft report for comments. On March 15, 2010, OCA submitted its formal
response, which is contained in Appendix IV. Management generally concurred
with some of the loan findings, but disagreed with others. Management also
disagreed with Recommendation 1, partially agreed with Recommendation 2, and
agreed with Recommendations 3 and 4. A summary of management’s comments
and our response follows.

Recommendation 1

Management Comments

Management disagreed that lenders should be required to use the actual cash flow
method to determine borrower repayment ability, and that cash flow projections
should be based on historical sales and executive compensation levels. It stated
that making lenders rely exclusively on historical data may not be appropriate for
all situations, and that some flexibility is necessary to realistically assess project
cash flows.

OIG Response

We believe that because PCLs make loans without prior approval from SBA, the
Agency needs to implement controls to ensure that lenders are making prudent
lending decisions. Our audit results indicate that providing lenders wide flexibility
reduces accountability and results in potentially riskier loans. While we believe
historical salary and sales should be the starting point from which to determine
business cash flow, we are not recommending that CDCs use it exclusively for
determining borrower repayment ability. Instead, we are suggesting that
deviations from historical data be clearly explained and documented. We noted
several loans where the actual salaries were significantly reduced in the cash flow
analyses, making more cash available for repayment ability. Had the actual
salaries been used, these loans would not have met SBA’s test for repayment
ability and would not have qualified. Absent a separate agreement limiting
salaries, there is no assurance that borrowers will reduce the salaries accordingly.
Similarly, we noted instances where sales projections were double that of
historical sales levels, without an explanation of how the business would achieve
                                                                                   17


the higher sales. Had the historical sales been used to determine borrower
repayment ability, the borrowers would not have qualified for the loans.

SBA acknowledges in SOP 50 10 4 that the actual cash flow method is the
preferred method for determining the cash flow of businesses that use the accrual
method of accounting because it provides an accurate picture of the cash available
to pay the business expenses. While we realize that this requires the borrower to
provide additional analyses, the two methods can yield very different results.
Therefore, the actual cash flow of the business is relevant to the loan approval
decision.

Recommendation 2

Management Comments

OCA stated that it already has a process to correct deficiencies identified in onsite
reviews, but expressed its belief that there is an opportunity to better link-up this
information with other CDC data in order to make better informed lender specific
and programmatic determinations.

OIG Response

Management’s comments do not identify steps they would take to ensure lender
performance issues are corrected timely. Because deficiencies were not corrected
after being identified during onsite reviews, we believe it is necessary to improve
the current corrective action process since it does not appear to be effective.

Recommendation 3

Management Comments

Management agreed to clarify guidance on how eligibility should be evaluated in
order to ensure that program intent is met when the Federal budget reduction
public policy goal is used to qualify a borrower for a 504 loan. However, because
current policy does not impose a time limitation on base closures, it believes the
eight loans identified as having eligibility deficiencies were properly made.

OIG Response

Management’s comments are responsive to the recommendation. However, we
believe the public policy clarification needed relates more to assessing the
continued existence of the adverse economic impact, and not just establishing time
limits for consideration of base closures. We also do not believe the lack of
definitive policy excuses PCLs from making a proper evaluation relative to the
program’s public policy goals. PCLs are required to assess whether the loan will
                                                                                    18


create/retain jobs or economically improve areas adversely impacted by Federal
cutbacks, such as base closings. In cases we cited as problematic, we found no
assessment of the impact or justification other than a check mark for base closure.
However, we found information showing that the areas had significant economic
growth, thereby bringing into question whether the adverse impact still existed.
While SBA has not defined the documentation needed to establish impact, it
seems reasonable that if a PCL were using Federal cutbacks as the basis for
qualifying the loan after 12 to 15 years, there should have been an analysis
documenting the continued adverse impact. In cases where we did not find
evidence of strong economic growth, we did not question that loan. Without an
explanation of these impacts, we do not believe the eight borrowers met the
standards for the 504 loan program. As such, we deemed them as ineligible for
the 504 loans.

Recommendation 4

Management Comments

Management agreed to evaluate the need for guidelines on the level of excess
funds that CDCs should retain as a reserve for future operations and/or invest in
other local economic development activities.

OIG Response

We believe management’s comments are responsive to the recommendation.

Management Disagreements on Specific Loan Findings

Management Comments

In addition to the eight loans cited as exceptions related to the public policy goal,
management cited three instances where it believed the environmental review
complied with SOP requirements in existence at the time.

Management also identified another six loans where it believed the underwriting
issues flagged by the audit were not valid.

OIG Response

As previously stated, we believe the eight loans needed documented justification
as to how the areas were adversely impacted by Federal budget cutbacks.
Regarding the three loans with environmental review issues, we relied on a district
official’s assessment in questioning those loans. Upon further review, this official
advised us that the three loans met the environmental review requirements.
Therefore, we changed the report to reflect the acceptability of the three
                                                                                  19


environmental reviews. This resulted in one loan being dropped from our findings
as it had no other deficiencies.

The Agency agreed with the majority of the underwriting issues raised in the
report, but disagreed with our underwriting findings for six loans. After further
review, we re-categorized one additional loan, which had been identified as having
underwriting issues, as being acceptable. However, borrowers on the other five
loans we believe lacked repayment ability either because the borrower
significantly inflated sales revenue, significantly understated officer salary
expenses, or an analysis of actual cash flow showed that the borrowers did not
have sufficient debt coverage.

ACTIONS REQUIRED
Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action(s) taken
or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access and
Office of the Chief Financial Officer during this audit. If you have any questions
concerning this report, please call me at (202) 205- [FOIA ex. 2] or Pamela Steele-
Nelson, Acting Director, Credit Programs Group, at (202) 205- [FOIA ex. 2].
                                                                                 20


APPENDIX I. SCOPE AND METHODOLOGY
The initial audit objectives were to determine whether: (1) CDCs exercised
prudent underwriting practices when making SBA loans; and (2) compensation of
Certified Development Corporation (CDC) executives was high relative to gross
receipts of the CDC. After the audit was announced, we expanded our scope to
assess the extent to which CDC/504 loans were approved in accordance with
eligibility and loan closing requirements based on issues identified during our
review of the loan files.

To assess the underwriting compliance of the CDCs in the Premier Certified
Lender Program (PCLP), we reviewed 25 of 100 statistically selected CDC/504
loans approved under Premier Certified Lender (PCL) authority that were
disbursed during fiscal year (FY) 2008. The loans had been approved by 3 of the
most active of the 24 PCLs---PCL 1, PCL 2, and PCL 3. We used a stratified
sample to ensure there was adequate representation from each of the three PCLs.
We reviewed 10 loans approved by PCL 1, 5 loans approved by PCL 2, and 10
approved by PCL 3. The 3 PCLs accounted for [FOIA ex. 8] percent of
CDC/504 loan funds disbursed in FY 2008. To determine the appropriateness of
the underwriting decisions, we assessed the reasonableness and consistency of the
PCLs’ financial analysis for each loan and the decisions on the applicant’s ability
to repay the loans in a timely manner based on the businesses’ cash flow.

To assess the extent that sampled loans complied with SBA’s eligibility and loan
closing requirements, we compared borrower information in the loan files for the
25 sampled loans to SBA’s eligibility requirements stated in SOP 50 10, Lender
and Development Company Loan Programs. We determined whether the PCLs
ensured that borrowers:

       •		 met general and program eligibility requirements;
       •		 were of sound character;
       •		 were creditworthy, given past personal and business credit history;
       •		 had verified repayment ability per personal and business financial
           statements based on business and personal tax returns or IRS transcripts;
       •		 met equity injection requirements; and
       •		 had adequate and acceptable collateral, as documented by current
           appraisals and sound environmental reports.

Lastly, we interviewed SBA officials from the Office of Financial Assistance who
are responsible for administering the CDC/504 Loan Program and from the Office
of Credit Risk Management, who oversee the CDC/504 Loan Program and are
responsible for its biennial reviews and management. We also interviewed
management and staff from the three CDCs and SBA’s Sacramento Loan
                                                                                21


Processing Center. Finally, we relied on reviews made by an SBA district counsel
to determine whether PCLs met SBA requirements for environmental assessments
of business collateral.

To determine whether compensation paid to five CDC executives was excessive,
we evaluated total executive compensation paid by CDCs as reported from
Internal Revenue Service (IRS) records for non-profit organizations. To evaluate
compensation, we identified executives associated with each of the five CDCs
from Form 990s filed with IRS, and compared salary plus other benefits paid to
these executives to that of the other 51 CDCs that had gross receipts in excess of
$1 million in FY 2006. The five CDCs were EDF Resource Capital, Inc., Long
Island Development Corporation, Capital Access Group, Inc., Mortgage Capital
Development Corporation, and Front Range Regional Economic Development
Corporation. We also reviewed the governing regulations regarding executive
compensation for CDCs, and interviewed SBA officials on this subject.
                                                                                    22




APPENDIX II. STATISTICAL SAMPLING METHODOLOGY
From a population universe of 1,169 Premier Certified Lender (PCL) loans
disbursed in fiscal year (FY) 2008 by three of the largest PCLs totaling
approximately $780 million, we randomly selected a statistical sample of 25 loans
to estimate our population values. In statistical sampling, the estimate of attributes
in the population universe has a measurable precision or sampling error. The
precision is a measure of the expected difference between the value found in the
sample and the value of the same characteristics found if a 100-percent review had
been completed using the same techniques.

The population point estimates and the related lower and upper limits for the
selected attributes were calculated using the Windows RAT-STATS statistical
software program at a 90 percent confidence level. Projecting our sample results
to the universe of approximately $780 million in loan disbursements made by the
three PCLs, we estimate the rate of poor underwriting and or incomplete eligibility
determinations to be nearly 49 percent, or approximately $255 million. The table
below shows our calculations for FY 2008 poor underwriting and or eligibility
determinations.


                    PROJECTED OCCURRENCES OF
 POOR UNDERWRITING DECISIONS AND ELIGIBILITY AND LOAN CLOSING ISSUES
                   Occurrence                        90 Percent Confidence
                   Sample of 25
                       Loan           Population
                  Disbursements     Point Estimate      Lower Limit          Upper Limit
Number                  17               792                572                 1,012
Dollar Value        $8,918,062       $401,574,057       $254,971,601         $548,176,513


Individually, projecting our sample results to the universe of approximately
$780 million in loan disbursements, we estimate the rate of poor underwriting
determinations to be nearly 16 percent, or approximately $56.4 million. The
following table shows our calculations for FY 2008 faulty repayment ability
conclusions.
                                                                                   23




         PROJECTED OCCURENCES OF POOR UNDERWRITING DECISIONS
                  Occurrence                       90 Percent Confidence
                  Sample of 25      Population
                      Loan            Point
                 Disbursements       Estimate         Lower Limit           Upper Limit
Number                 10              413                183                  643
Dollar Value       $5,353,600      $213, 648,015      $56,424,473          $370,871, 558


Relative to eligibility determinations, we estimate the rate of loans that did not
comply with loan eligibility requirements to be nearly 36 percent, or
approximately $209 million. The table below shows our calculations for FY 2008
incomplete eligibility determinations.


   PROJECTED OCCURENCES OF LOANS THAT MAY NOT HAVE COMPLIED WITH
              ELIGIBILITY AND LOAN CLOSING REQUIREMENTS
                  Occurrence                       90 Percent Confidence
                  Sample of 25      Population
                      Loan            Point
                 Disbursements       Estimate         Lower Limit           Upper Limit
Number                  13             637                417                 858
Dollar Value       $7, 598,938     $355,434,147       $209,497,658         $501, 370,635
                                                                                              24


    APPENDIX III. SAMPLED CDC LOANS REVIEWED

                                Deficiency     Outstanding
    Sample    Loan Number       Summary         Balance
       1		    [FOIA ex. 2]         2, 5,         $185,615
       2      [FOIA ex. 2]          6            $466,126
       3      [FOIA ex. 2]          3            $236,097
       4      [FOIA ex. 2]           -               ­

       5      [FOIA ex. 2]

        2            $419,898
       6      [FOIA ex. 2]           -               ­

       7      [FOIA ex. 2]

         ­

       8      [FOIA ex. 2]

        3            $678,884
       9      [FOIA ex. 2]          6            $104,551
       10     [FOIA ex. 2]           -               ­
       11     [FOIA ex. 2]        1, 2, 3        $640,262
       12     [FOIA ex. 2]           -               ­
       13     [FOIA ex. 2]         3, 4          $493,365
       14     [FOIA ex. 2]          3            $459,152
       15     [FOIA ex. 2]         3, 6         $1,149,689
       16     [FOIA ex. 2]        3, 5, 7       $1,382,135
       17     [FOIA ex. 2]          5            $262,725
       18     [FOIA ex. 2]          3            $625,202
       19     [FOIA ex. 2]         3, 6          $344,704
       20     [FOIA ex. 2]         3, 6          $478,968
       21     [FOIA ex. 2]           ­
       22     [FOIA ex. 2]          3            $503,967
       23     [FOIA ex. 2]           -               ­
       24     [FOIA ex. 2]          7            $485,722
       25		   [FOIA ex. 2]           -               ­
       25		   Totals                            $8,918,062

Deficiency Summary Legend
1. Environmental Assessment
2. Adverse Change Evaluation
3. Loan Eligibility ­
   Exporter Verification, Occupancy, Personal Guarantees, Equity Injection, Job Creation/Retention
   Requirement
4. Repayment Ability - General
5. Repayment Ability - Use of Projection
6. Repayment Ability - Use of Net vs. Historical Executive Compensation
7. Repayment Ability - Use of Rule of Thumb vs. Accrual Cash Flow Assessments
                                                                                                            25
 •                  APPENDIX IV. MANAGEMENT COMMENTS
~                                 u.s. SMALL BUSINESS ADMINISTRATION
~
                                            WASHINGTON. D.C. 20416

I'''''$T~ ~<\
          ...
                             

        DATE:         March 15,2010


           TO:        DebraRitt
                      Assistant Inspector General for Auditing

       FROM:          Eric Zamikow 	                                    [FOIA ex. 6]
                      Associate Administrator, Office of Capital Access

     SUBJECT:
                      Response to Draft Audit Report: Underwriting Practices and Compliance
                      Of Premier Certified Lenders in the Section 504 Loan Program, Project
                      80]5


      Thank you for the opportunity to review the subject draft audit report. We appreciate the time
      your staff has taken in reviewing the program. Please find our response to the report
      recommendations below. We have a150 attached more detailed infonnation containing our
      response to the specific loan exceptions Doted in the report.

      We believe it is important to note that while the report makes broad projections onto the 504 loan
      portfolio based on the eligibility and underwriting weakness identified, 21 of the 25 loans
      reviewed by the Office of Inspector General (010), or 84%, are currently in a perfonning status.
      These loans survived the economic tunnoil oflate 2008 and 2009 in spite of the loan exceptions
      noted in the audit.

       I. 	 Revise SOP SO 10. Lender and Development Company Loan Programs. to require that
            lenders use (a) actual cash flow method to determine borrower repayment ability
                                                                                        abilityfor
                                                                                                for
            businesses using accrual accounting. (b) historical salary levels to estimate officer salary.
            and (c) historical sales data 10 make sales projections.

           (a) 	 SBA disagrees with OIG's recommendation to require lenders to use only the actual cash
                flow method to determine borrower repayment ability for businesses using accrual
                accounting. SBA's SOP provides an option to lenders to use the rule of ofthumb
                                                                                         thumb method.
                and this remains the Agency's policy. The CDCs reviewed in the report followed
                existing, approved policy and it is inaccurate to cite underwriting exceptions when they
                were complying with established policy_

           (b) SBA agrees that estimations made with regard to officer compensation levels should be
               analyzed, substantiated and documented and will evaluate its guidance in this area for
               adequacy_ We disagree, however, with limiting an analysis of executive compensation
               to historical salary levels. Small business owners generally understand the need to make
               trade-offs between personal fmances and investing in their small businesses. Limiting
               executive compensation to historical salary levels is not appropriate in all situations.

           (c) Similarly, SBA agrees that cash flow projections should be supported and based on
               factual matters and will also evaJuate its guidance in this area for adequacy. We disagree
               that projections m~ be based exclusively On historical sales levels. Projections should
                                                                                                       26




        be permitted to reflect increased capacity due to expansions. Using solely historical
        infonnation for projections may not reflect the specifics of a local economy. business
        fluctuations (up or down) and/or situations where there are unique competitive benefits or
        constraints. While assumptions must be reasonable and document~ limiting cash flow
        analyses to historical levels is not appropriate in all cases and some flexibility is
        necessary to realistically assess project cash flows.

2. 	 Review guidance
             guidanceforfor the performance of
                                            ofomite
                                               omite reviews, and develop a process to ensure that
     corrective actions are taken in response 10 OCRM onsite reviews to make sure these
     conditions do not continue,' and/or modify guidance for these reviews. as appropriate, to
     ensure that reviewers properly assess lender determination of    borrower repayment ability
                                                                    ofborrower
     and eligibility; including lender validation o/financial in/ormation wed by borrowers to
     demonstrate repayment ability and assessment of    eligibility on achievement of
                                                      ofeligibility                ofpublic
                                                                                     public policy
     goals.

    As the draft audit report noted. the OCRM onsite reviews did identify similar concerns with
    eligibility and underwriting of Section 504 loans. Further. OCRM does have a corrective
    action process designed to work with CDCs to correct deficiencies identified in its reviews.
    However, consistent with the Administrator's focus on risk management, we believe there is
    an opportunity to better link-up this information with other CDC infonnation in order to
    make better infonned lender specific and programmatic detenninations.

3. 	 Revise current guidance to clarify how eligibility should be evaluated in order to ensure the
     intent 0/ the CDCl504 Loan Program is mel when the Federal budget reduction public policy
     goal ;s wed to qualify a borrower for a CDC loan.
                              borrowerfor

    We agree that guidance on this matter should be clarified. However. the Federal budget
    reduction pubJic policy goal is met through a base closure, and there is no time limitation on
    how long ago the base may have closed. Designation ofa Section 504 loan as meeting the
    Federal budget reduction public policy goal due to a base closure is pennissible and.
    therefore, the eight loans identified as having eligibility deficiencies should not have been so
    identified.

4. 	 Evaluate the need to establish guidelines, monetarily or otherwise, on the level of
                                                                                      ofexcess
                                                                                        excess
     funds that CDCs should retain as a reserve for future operations and/or invested in other
     local economic development aClillitles.

Updates to the 504 program regulations are on SBA's regulatory agenda for FY20IO. SBA will
evaluate the need to establish guidelines, monetarily or otherwise. on the level of excess funds
that eDCs should retain as a reserve for future operations and/or invest in other local economic
development activities as part of
                               ofthe
                                  the regulatory update.

With regard to the specific Joan deficiencies cited in the draft audit report, SBA has reviewed the
loans and identified some differences in the specific exceptions and/or the general conclusions
made. A swnmary of our loan specific issues is attached.


Attachment A: Summary of Findings - CDC Loans Reviewed
Attachment B: Summary of Loan Review Concerns
                                                                                                                                                                27
                                                                                                                                                                     .,·,
                                                                                                                                                                     "




         ATTACHMENT A: SUMMARY OF FINDINGS - CDC LOANS REVIEWED

                                 OIG         SBA 

                              Deficiency 
 Deficiency 
   Oustanding
Sample   Loan Number          Summary 
 Summary 
          Balance        Status   ~mments
                                                                                   iComments
                                                                                    CDC actually Increased executive comp to meet owner's cash needs
  1          FOIA ex.
           [[FOIA ex. 2]
                      2]        2,5,6           2         $   185,615 Current       Projections
                                                                                    PrfJjections supported


                                                                                   Environmental screen obtained as allowed by SOP
                                                                                   Credit memorandum explains adjustments made to officer's compensation
  2        [FOIA eex.
           [FOIA   x.
                   x. 2]         1,6            -         $   466,126 Current      although no agreement was found that officers would take less compensation
  3        [F
            FOIA
              OIA eex.
                    x.
                    x . 2]        3             3         S   236,097 Current
  4        [[FO
             FOIA
              OIrA
                 A ex.
                   ex. 2
                       2]]        .
                                  ~
                                                -                     Current
  5        [F
           [FOIA
              OIA ex
                  ex.
                  ex.. 2]         2             2         $   419,898 Current
  6        [[FOlA
             FOIA ex. 2]          -             -                     Defaulted
  7        [F OIA ex.
           [FOrA  ex.
                   x . 2]
                       2]        4,6            -         $   249,807 Current      Projections supported
  8        [FOIA ex.
                 ex . 2]
           [F OIAex.2             3             -         $   678,884 Current      Base closure polley
                                                                                                policy goal
  9        [FOlA
             OIA ex. 2]           6             6         $   104,551 Current
  10       [FOI
             OIA ex
            FOrA ex.. 22]]        -             -                     Current
  11       [[FOrA
             FO IA ex.
                   ex . 2]
             FOIAex.2           1,2,3          1,2        $   640,262 Current
                                                                      current      Base closure policy goal
  12       [FO
             OIA
               lA
               IA eex.
                    x.
                    x. 22]]       -             -                     Current
                                                                      CUrrent
                                                                                   Base closure policy goal
                                                                                   IRS veriflcation
                                                                                       veriflcatlon of income may have been required by SOP; disagree with
                                                                                       verification
                                                                                   conclusion that results of repayment ability analysis could not be relied upon;
                                                                                   business a Subchapter S Corp and lender obtained IRS transcript$        ~rsonal
                                                                                                                                           transaipts for personal
                                                                                                                                           transcripts
                                                                                   tax returns which verified critical business income data Included in the
  13        [FOIA
            [F OIA ex. 2]        3,4            -         S   493.365 Current
                                                              493,365              repayment analysis
  14         OlA ex. 2]
           [FOIA                  3             3         $ 459,152 Current
  15       [[F
             F
             FOIA      2]
               OIA ex. 2]        3,6           3,6        $ 1,149,689
                                                            1.149,689 CUrrent
                                                                                   Base closure policy goal
  16       [ForA
             OIA exx.. 2]       3,5,7 

                                3,5.7           5         $ 1,382,135 Current                                            cast! flow analysis
                                                                                   Rule of thumb a permissible method of cash
  17        FOlA ex.2
                  x . 2]
           [FOIAex.               5
            5         $   262,nS Defaulted
  18       [[F
             FOIrA ex. 2]         3
            -         S
                                                          $   625,202 Current      Base dosure policy goal
                                                                                   Agree with eligibility on required equity
  19        FOlA ex.
           [FOIA e x . 2]        3,6           3,6        S
                                                          $   344,704 Current
                                                                      CUrrent
                                                                      current      Del not agree
                                                                                   Do      asree with base closure loal
                                                                                                                    80al exception
                                                                                                                                                          28




                                                                                     Have Phase II environmental, lower level assessments not necessary
   20         [FOIAex.2]      1,3,6           6       S     478,968 Current          Base dosure policy goal
   21        [FOIAex.2]         1             -       S     599,583 Current          Environmental adequate
                                                                                     Base dosure policy goal
   22        [FOIAex.2]         3             -       $     503,967 Defaulted        Occupancy at least 51%
   23         [FOIAex.2]        .             -                     Current
   24         [FOIAex.2]        7             -       S     485,722 Defaulted        Rule of thumb a permissible method of cash flow analysis
   25         [FOIAex.2]        .             -
   25     ~OTALS
          iTOTALS                                     $   9,766,452


Defldencv Summary Legend
     1     Environmental Assesment
     2     Adverse Change Evaluation
    3      Loan Eligibility •
           Exporter Verification, Occupancy, Personal GUarantees, Equity InJection, Job Creation/Retentlon Requirement
    4      Repayment Ability - General
    5      Repayment Ability· Use of Projection
    6      Repayment Ability· Use of Net vs. Historical executive Compensation
     7     Repayment Ability· Use of Rule of Thumb vs. Accrual Cash Flow Assessments
                                                                                                                29
.-.-


                                               ATfACHMENT B

                                SUMMARY OF LOAN REVIEW CONCERNS



        Eligibility

        In eight instances, the draft report cited exceptions related to the public policy goal that supports
        budget cutbacks and base closures. In the loans reviewed by OIG, there is no disagreement that a
        base closure occurred. The concerns identified related to the length of time between the base
        closure and the Section 504 loan- in some instances the difference was almost 15 years. We
        agree that in those instances where there has been a significant period of   time between the two
                                                                                  oftime
        events that there should be some nexus established between the two events. However, SBA' 5
        guidance does not establish specific requirements for base closures, to qua1ify a loan as eligible as
        a Section 504 loan under this public policy goal. Without a specific requirement for a timefi-ame,
        we do Dot believe that the CDCs have made ineligible loans for this factor. This public policy
        goal is treated in the same manner for regular S04 loans that are approved by SBA. We would
        agree that the Agency should provide more guidance in this area for CDCs to apply but do not
        believe these loans should be included in the conclusions and projections made about the
        eligibility of the loans made by the CDCs.

        The second eligibility issue of concern to us relates to the exceptions noted on the environmental
        reviews conducted for the individual Section 504 loans. The report cited four instances of
        deficiencies in the environmental reviews conducted by the PCLPs. In three instances. we
        believe the environmental review complied with SOP requirements in existence at the time (SOP
        50 10 4). Since that time. the SOP has been revised and more stringent requirements were put in
        place (SOP 50 to 5). These loans should be removed from any calculation related. to eligibility
        deficiencies made by the PCLPs.       .

        Lastly. we would like to address the requirement for current financial statements prior to the
        closing of Section 504 loans. We acknowledge the requirement and agree that the file does not
        include the required statements. This exception was identified in three loans although the
        financial statements for one loan were only 13 days older that required. However, we would note
        that this is not an eligibility issue but a closing deficiency.


        Underwriting

        The vast majority all of the underwriting exceptions identified in the audit relate to evaluation of
                              ofthe
        repayment ability. They faU into three broad categories - sales projections, the rule of thumb
        method of calculating cash flows, and net compensation calculations to determine officer
        compensation. We agree that projections should be supported and based on factual matters.
        While we believe that some additional guidance to CDCs related to documenting projections may
        be appropriate, we do not come to the same conclusions as 010 in each specific instance.

        The use of
                 ofhistorical
                    historical information andlor industry standards is important in evaluating cash flow
        projections. However, they must also be considered in the context of the purpose of the loan. If
        the loan is for expansion, saJes projections in excess of historical levels must be made in order to
        accommodate the additional capacity being obtained through the loan. Similarly, when the
                                                                                                            30

..


     industry is unique. with few competitors, the availability of industry comparisons is limited or not
     available. Reasonableness must prevail in assessing cash flow projections.

     The rule of thumb method of establishing cash flow and debt service coverage is permissible,
     along with the actual cash flow method, in SBA's SOP. Since it is permitted, we do not believe
     these loans should be included in the conclusions and projections made about the underwriting of
     the loans made by the CDCs. The 010 only identified two specific exceptions in the
     underwriting category relating to the use of the rule of
                                                           ofthumb
                                                              thumb method. Two instances do not
     seem to be a sufficient1y substantiated finding to result in a recommendation that SBA eliminate
     this method from its SOP.

     The draft audit report identified numerous instances where the net compensation method was
     utilized to ca1culate officer salaries in the cash flow projections. We believe that there are
     occasions where a small business owner may adjust its compensation based on the actual cash
     needs of the business and may make reasonable adjustments to compensation in a choice to re­
     invest those funds into the business. However, we also believe that the analysis of those
     decisions must be documented in order to properly evaluate a small business' cash flow
     projections and debt service coverage. SSA will provide additional guidance to CDCs on this
     matter.
